  SELECT APPLICATION CONTROLS
 REVIEW OF THE FEDERAL BUREAU OF
PRISONS’S SENTRY DATABASE SYSTEM


         U.S. Department of Justice
       Office of the Inspector General
                Audit Division

            Audit Report 03-25
                July 2003
                      SELECT APPLICATION CONTROLS REVIEW OF
                         THE FEDERAL BUREAU OF PRISONS’S
                              SENTRY DATABASE SYSTEM

                                          EXECUTIVE SUMMARY

      SENTRY is the Federal Bureau of Prisons’s (BOP) primary mission
support database. The system collects, maintains, and tracks critical inmate
information, including inmate location, medical history, behavior history, and
release data. SENTRY processes over 1 million transactions each day and
tracks more than 165,000 inmates. Roughly 85 percent of these inmates
are housed within the BOP facilities, with the remaining inmates confined in
other government facilities (state or local) or privately operated facilities
through contracts with the BOP. As of March 2003, over 24,000 personal
computers at approximately 200 facilities could access SENTRY.

      The purpose of this audit was to assess the application controls for the
BOP’s SENTRY database to determine whether inmate data entered in
SENTRY is valid, properly authorized, and completely and accurately
processed.1 Our criteria for conducting the review was the Federal
Information System Controls Audit Manual (FISCAM).2 We reviewed the
accuracy and timeliness of SENTRY’s input, processing, and output controls
and judgmentally selected 3 of the BOP’s 29 Community Corrections Offices
(CCO) to conduct onsite reviews of their operational workflow (Annapolis
Junction, Maryland; Philadelphia, Pennsylvania; and Chicago, Illinois). These
sites were selected because they process large volumes of inmate data into
SENTRY.

       Our application review of SENTRY identified weaknesses in 4 of the 27
FISCAM control areas that we tested. We do not consider our findings in
these areas to be major weaknesses and assessed SENTRY overall at a low
risk to the protection of its data from unauthorized use, loss, or




1
    As part of our testing of the BOP’s Annual Financial Statement for fiscal year 2002, we conducted a general
    control review of SENTRY’s operating environment. General controls are the structure, policies, and procedures
    that apply to an entity’s overall computer operations. If general controls are weak, they diminish the reliability
    of controls associated with individual applications. Our general control review identified weaknesses in one of the
    six general control areas that we tested (the system development/change control process).

2
    FISCAM was developed by the General Accounting Office (GAO) and describes the computer-related controls that
    should be considered when assessing the integrity, confidentiality, and availability of computerized data.
    According to FISCAM, both general and application controls must be effective to help ensure the reliability,
    appropriate confidentiality, and availability of critical automated information. See Appendix III for a detailed
    description of the FISCAM application control areas tested.


                                                           i
modification.3 Our findings were in the following four areas:

               •   Supervisory reviews (input process),

               •   Secured/restricted terminals (audit logs),

               •   Limited transactions access control, and

               •   Computer matching of transaction data.

      Specifically, we identified data input errors resulting in incorrect
inmate offense/charge codes, incorrect inmate’s commitment date,
incorrect date of offense, and offense fines not entered into SENTRY. We
also found that the BOP did not adequately monitor audit log exception
reports. Moreover, our review of SENTRY’s access controls disclosed that
the combination of authorization profiles and terminal access authority did
not function as required because users with limited access profiles were
able to process transactions above their level of access when logged onto
terminals designated for users with higher authorization. We also tested
completeness controls and found that the BOP’s SENTRY General Use
Manual failed to include a required step while updating inmate information.

      We concluded that these weaknesses occurred because BOP
management did not fully develop, document, or enforce the BOP policies in
accordance with current Department of Justice (Department) policies and
procedures. If not corrected, these security vulnerabilities could impair the
BOP’s ability to fully ensure the integrity, confidentiality, and availability of
data contained in SENTRY.

      This report contains recommendations for improving application
controls for SENTRY in the Findings and Recommendations section. In
general, we recommend that BOP management ensure that:

               •   The BOP’s inmate data entry form is updated to reflect current
                   BOP procedures and needs,

               •   The BOP’s “SENTRY System Security Guide,” requires routine
                   generation and review of exception reports,

3
    The National Institute of Standards and Technology (NIST) defines risk as the possibility of harm or loss to any
    software, information, hardware, administrative, physical, communications, or personnel resource within an
    automated information system or activity. Additionally, NIST categorizes the information into three basic
    protection requirements of high, medium, and low in accordance to the system’s sensitivity level. Specifically,
    low risk would be detrimental if the information is compromised causing minor loss and needing only
    administrative action.


                                                           ii
        •   Exception reports are provided timely to the Information
            Security Officer,

        •   SENTRY’s workstation controls are properly configured to access
            only authorized areas of the system, and

        •   The BOP’s SENTRY General Use Manual is updated to reflect
            proper procedures for entering initial records into SENTRY.

     The details of our work are contained in the Findings and
Recommendations section of the report. Our objectives, scope, and
methodology appear in Appendix I.




                                     iii
                            TABLE OF CONTENTS

                                                                                   Page
BACKGROUND ....................................................................... 1
       SENTRY Database System Environment .............................. 3


FINDINGS AND RECOMMENDATIONS..................................... 5
     I. Authorization Controls (Input) ........................................ 5
          Supervisory Reviews (Input Process) .............................. 6
          Recommendations ....................................................... 8
          Secured/Restricted Terminals (Audit Logs) ...................... 8
          Recommendations ....................................................... 9
          Limited Transactions (Access Controls) ........................... 9
          Recommendation ......................................................... 11

    II. Completeness Controls (Processing) ................................. 11
          Computer Matching of Transaction Data .......................... 11
          Recommendation ......................................................... 12

   III. Accuracy Controls (Output) ............................................. 12

   IV. Controls Over Integrity of Processing
       and Data Files ............................................................... 12


CONCLUSION ........................................................................ 13

OTHER REPORTABLE MATTER ................................................ 15

APPENDICES:
   I. OBJECTIVES, SCOPE, AND METHODOLOGY.......................... 16

  II. FEDERAL INFORMATION SYSTEM CONTROL AUDIT MANUAL
      APPLICATION CONTROL AREAS.......................................... 17
 III. APPLICATION CONTROLS REVIEW GUIDELINES ................... 18

 IV. SENTRY’S AUTHORIZED USERS LIST .................................. 36

  V. ABBREVIATIONS.............................................................. 37

 VI. DESCRIPTION OF SENTRY DATABASE MODULES .................. 38

VII. APPLICATION CONTROL CRITERIA...................................... 41

VIII. THE BOP RESPONSE TO THE DRAFT REPORT ....................... 42

 IX. OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION,
      ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
      CLOSE THE REPORT ......................................................... 45
                      SELECT APPLICATION CONTROLS REVIEW OF
                         THE FEDERAL BUREAU OF PRISONS’S
                              SENTRY DATABASE SYSTEM

                                                   BACKGROUND

      SENTRY, the Federal Bureau of Prisons’s (BOP) primary mission
support database, processes more than 1 million transactions each day and
provides data files to a number of external organizations, including the
United States Pardon Attorney, United States Marshals Service (USMS),
Federal Bureau of Investigation, and United States Parole Commission. The
BOP deployed its SENTRY database in 1978. It currently assists in
monitoring and tracking approximately 165,000 federal inmates.

      The system is designed to automate and assist in the monitoring of
inmates consistent with implementation of the Violent Crime Control and
Law Enforcement Act of 1994 (VCCLEA),4 the Prisoner Litigation Reform Act
(PLRA),5 and other laws, which may require special treatment of inmates
within the BOP prison institutions. All inmate information, which is critical to
the safe and orderly operation of BOP facilities, is collected, maintained, and
reported within SENTRY. This information includes inmate institution
assignment, inmate population, and sentence data. A diagram detailing the
various SENTRY modules and a short description of each module follow.




4
    The VCCLEA provided for new police offices, funding for prisons, and funding for prevention programs.
5
    In April 1996, the PLRA was enacted by Congress as part of the Balanced Budget Down Payment Act, which
    limits the prospective relief that can be provided for prison conditions as well as terminates the existing orders
    for prospective relief unless a court finds that prospective relief remains necessary to correct a current or
    ongoing violation of a federal right.


                                                           1
                         SENTRY DATABASE MODULES AND DESCRIPTIONS6




                                         State Billing –   Tracks and reports amounts billable to individual states for
                                         inmates serving state sentences in BOP facilities.




                                         Financial Responsibility – Records, manages, and monitors court-ordered
                                         financial obligations imposed on an inmate.


Inmate
Population
Monitoring –                             Inmate Discipline – Tracks every report of an infraction of institution rules
                                         filed against an inmate.
Tracks inmate
movement in
every BOP facility
or while an
inmate is in
transit,                                 Administrative Remedy       – Automatically produces and routes inmate data
regardless of                            needed to complete an internal investigation.
location or time
of day.



                                         Central Inmate Monitoring – Identifies inmates within SENTRY who
                                         require special handling.




                                         Designations – Assigns inmates to specific facilities.




                                         Sentence Monitoring – Calculates and tracks all aspects of an inmate’s
                                         sentence.




                  Source: The BOP’s Information Technology Investment Report, March 1998.




        6
            SENTRY also includes a Property Management Module that tracks BOP’s accountable property and automatically
            computes the depreciation of capitalized property; however it is not directly applicable to the Inmate Population
            Monitoring Module.
                                                                    2
SENTRY Database System Environment

        SENTRY resides on a BOP mainframe7 computer located at the Justice
Data Center in Dallas, Texas (JDC-D) operated by the Department of Justice
(Department) Justice Management Division’s (JMD) Computer Services.
Over 24,000 personal computers are in place - at approximately 200
facilities in the Department and BOP - to grant access to SENTRY by way of
the BOP’s Washington, D.C., Network Control Center (NCC).8 These remote
sites include federal correctional facilities, regional offices, Community
Corrections Offices (CCO), and other selected offices. The following diagram
depicts SENTRY’s network configuration:

                                  SENTRY Network Configuration
                                       Justice Data Center - Dallas, TX.

      SENTRY is housed on a
      mainframe computer at                                    DATA
      the JDC-D in Dallas, TX.
                                               MAINFRAME


                                                                                      The Sprint FTS and
                                                                                      local exchange
                                          Sprint Federal Telecommunications
                                                     System (FTS)                     carriers provide the
                                                                                      communication links
                                                                                      to SENTRY.




                      SENTRY applications are                                  The BOP’s NCC
                      accessed by end-users,                                  Washington, D.C.
                      Department and BOP
                      facilities through the BOP’s
                      NCC.


                                         Sprint Federal Telecommunications
                                                    System (FTS)




                                                     SENTRY users




Source: The Office of the Inspector General’s (OIG) analysis of the SENTRY Network Configuration.




7
    A mainframe is a large system capable of handling tens of thousands of online terminals. Large-scale
    mainframes support multiple gigabytes of main memory and terabytes of disk storage. Large mainframes
    use smaller computers as front-end processors that connect to communications networks.

8
    See Appendix IV for a listing of SENTRY’s authorized users.


                                                           3
       SENTRY utilizes a client/server application. This is a network
architecture in which each computer or process on the network is either a
client or a server. Servers are powerful computers or processes dedicated
to managing disk drives, printers, or network traffic. Clients are personal
computers (PCs) or workstations on which users run applications. Clients
rely on servers for resources, such as files, devices, and even processing
power. The client part of the program is referred to as the front-end
processor and the server part is referred to as the back-end.

      SENTRY is comprised of approximately 700 program routines written
in COBOL,9 which is used to process data to a database management
system (DBMS). SENTRY allows concurrent sharing of data among multiple
users. The DBMS maintains the indices that are necessary to translate
application program data requirements into the information used by the
mainframe’s operating system to read or write data to SENTRY. The DBMS
application used for SENTRY is the Computer Associate’s (CA) Integrated
Data Management System (IDMS). The IDMS’s function is to process
transmitted data between SENTRY and the mainframe operating system.
The IDMS writes and retrieves data to and from the physical storage area of
the mainframe when SENTRY is accessed.

       SENTRY communications are relayed by way of the BOP’s Wide Area
Network (WAN) circuits. The SENTRY mainframe is accessed by way of
Systems Network Architecture (SNA) gateways,10 which ensure that all
SENTRY circuits include end-to-end encryption. Each BOP facility connects
directly to the BOP’s NCC via the Sprint Federal Telecommunications System
(FTS) network. The Sprint FTS and the local exchange carriers provide the
communication links for SENTRY. However, the BOP migrated its data
communications to the Justice Consolidated Network (JCN),11 which also is
implemented primarily through the Sprint FTS contract. The FTS currently
provides intercity telecommunications services for federal government
agencies.



9
     COBOL (Common Business Oriented Language) is a popular high-level programming language used for business
     applications that runs on large computers.

10
      SNAs are IBM's mainframe network standards consisting of a centralized architecture with a host computer
     controlling many terminals. Enhancements have adapted SNA to today’s peer-to-peer communications and
     distributed computing environment. Gateways perform protocol conversion between different types of networks
     or applications to facilitate communication between different systems.

11
     The OIG previously audited JCN (see OIG Audit Report Number 03-13, “Independent Evaluation Pursuant to the
     Government Information Security Reform Act,” fiscal year 2002, the Justice Consolidated Network, February
     2002).

                                                        4
                             FINDINGS AND RECOMMENDATIONS

                    Our application review of SENTRY identified weaknesses
                    in 4 of the 27 FISCAM control areas that we tested.12
                    In our judgment, these are not major weaknesses in
                    SENTRY. We consider the system overall to be at a low
                    risk to the protection of its data from unauthorized use,
                    loss, or modification. Specifically, we found weaknesses
                    in the areas of supervisory reviews (input process),
                    secured/restricted terminals (audit logs), limited
                    transactions for access controls, and computer
                    matching of transaction data. We concluded that these
                    weaknesses occurred because BOP management did not
                    fully develop, document, or enforce the BOP policies in
                    accordance with current Department policies and
                    procedures. If not corrected, these weaknesses could
                    impair the BOP’s ability to fully ensure the integrity,
                    confidentiality, and availability of data contained in
                    SENTRY.

I.         Authorization Controls (Input)

      Authorization controls involve the process of granting or denying
access to a network resource, converting the data to an automated form,
and entering the data into the application in an accurate, complete, and
timely manner. Testing of authorization controls includes examining the
data input process and determining if controls exist for ensuring:

           •    Data are authorized prior to being entered;

           •    Access restrictions exist to prevent unauthorized personnel from
                obtaining blank source documents to record unauthorized
                information and insert the document into production with
                authorized documents;

           •    Supervisory or independent reviews of the source document occurs
                before its data is entered into the automated system;

           •    Data entry terminals are only accessible to authorized users for
                authorized purposes;
12
     Although we performed a full application review of SENTRY, this audit report does not include an evaluation of
     SENTRY’s general controls. As part of the OIG’s Federal Bureau of Prisons Annual Financial Statement for fiscal
     year 2002, we evaluated the general controls over select SENTRY systems. In that report, weaknesses were
     identified in the area of application software development/change control, which represents one of General
     Accounting Office’s (GAO) six FISCAM general controls.
                                                          5
           •   Users are limited to what transactions they can enter;

           •   Master files are configured to assist with identifying unauthorized
               transactions;

           •   Exception reports are generated and reviewed before transactions
               are posted; and

           •   Duties are appropriately segregated among staff.

      Our audit of the BOP’s authorization controls for SENTRY found that
authorization controls were in place within the areas of controlled and
authorized source documents;13 unauthorized transactions; and reported
exceptions. However, we identified weaknesses with respect to SENTRY’s
input process, review of audit logs, and access controls.

           Supervisory Reviews (Input Process)

      During the input process, a supervisory (or independent) review of the
data should occur before it is entered into the automated system. This
control is used to ensure that unauthorized transactions are not being
entered and that exceptions are reviewed and corrected before transactions
are posted. Since SENTRY is used for collecting, maintaining, and reporting
inmate information vital to the operation of the BOP facilities, it is critically
important to maintain the integrity and quality of the data that lies within it.
The BOP’s Information Technology Investment Report (Section 2.2), dated
March 1998, requires accurate entry of data to help provide assurance that
data integrity is being maintained.

      We performed survey work of the BOP’s mandatory procedures for
SENTRY’s input process at one field office (Chicago, Illinois), and we
performed detailed testing at two regional offices (Philadelphia,
Pennsylvania; and Annapolis Junction, Maryland). To review for
authorization and correct entry into SENTRY, we selected a total of 48
inmate files from the Philadelphia and Annapolis Junction offices. From each
case file, we examined the mandatory source documents (the Court’s
Judgment and Commitment Order (J&C), the USMS Judgment and Individual
Custody and Detention Report,14 and the United States Probation Office’s
pre-sentence investigation report) and compared them to the information
13
     Controlled and authorized source document controls are implemented to ensure that access to blank documents
     is restricted to authorized personnel.
14
     This form is referred to as Form USM-129.


                                                        6
entered into SENTRY. These three source documents are received by the
CCO and are used to complete the initial processing of an inmate
assignment.15

       We selected a total of 23 case files for review at the BOP’s Philadelphia
CCO. Two of the 23 case files identified data entry errors. One case file
contained an incorrect “offense/charge code” (“391”) for “attempt and
conspiracy” versus a correct code (“381”) for “create, manufacture,
distribute or dispense controlled narcotic drug.” The second case file
revealed an incorrect inmate’s commitment date. A source document (J&C)
showed a commitment date of “09/19/02,” yet the date entered in SENTRY’s
database was “09/18/02.”

       At the BOP’s Annapolis Junction CCO, we reviewed 25 case files. We
identified data entry errors for three case files. At this office, we again
found an inmate “description of offense” code incorrectly entered. In this
case, an incorrect offense code of “381” was entered instead of the code
“382” “marijuana charge” as indicated on the source document (PSI report).
Additionally, we found a different inmate’s record was entered in SENTRY
with an incorrect “date of offense.” The source document (J&C) contained
only the month and year. However, the date entered into SENTRY was
“12-31-1999.” Lastly, some information contained in an inmate’s case file
was not entered into SENTRY. The source document (J&C) indicated that
the inmate paid offense fines of $500 and assessments fines of $50.
However, this information was not entered in the “Felony Assessment &
Fines” data fields in SENTRY.

       The errors identified above were disclosed to the BOP and corrected in
the presence of our auditors. While the input errors we identified were
relatively minor, they represent a weakness in internal controls because the
severity of an input error could result in a more serious outcome. For
example, the repercussions of an incorrect offense/charge code could result
in transporting an inmate to an inappropriate facility.

       In our judgment, these errors occurred because: 1) the BOP does not
enforce the use of the BOP’s form BP-337 as a primary document for
inputting data into SENTRY, and 2) the BOP’s primary form BP-337 does not
identify which source documents are to be used to complete mandatory
information into SENTRY. Additionally, the multiple source documents used
to complete the BP-337 sometimes contain conflicting information or lack
mandatory information. Since the BOP Community Corrections Management

15
     The BOP transfers information obtained from the courts, the USMS, or other law enforcement documents to a
     single document (the Male/Female Inmate Load and Designations Form BP-337). The BOP uses the BP-337 as
     the source document for entering consolidated data into SENTRY.
                                                       7
Operational Procedures, Policy Standards (PS) 5100.07, does not require the
BP-337 to be completed for all data input into SENTRY from a single source
document (or state which source document should be used to complete the
various sections of the BP-337), this causes confusion as to which source
document to use to obtain the mandatory information.

     Recommendations:

           We recommend the BOP Director ensure that BOP management:

           1. Enforce the BOP (PS) 5100.07, which states that all CCOs are
              to use the BP-337 for inputting initial inmate data as the sole
              source document.

           2. Redesign the BP-337 so that mandatory information needed
              for tracking BOP inmates can be documented.

           3. Modify the BP-337 to indicate which source document should
              be used to complete each field within this form.

     Secured/Restricted Terminals (Audit Logs)

       Audit logs (commonly known as audit trails) maintain a record of
activity by system or application processes. Audit logs provide a means to
help establish several security–related objectives, including individual
accountability, reconstruction of events, intrusion detection, and problem
identification.

      Automated controls, such as an audit log that produces exception
reports, help to ensure data integrity and can alert management to possible
misuses of the system. We found that the BOP end-users and management
depend on manual verification of transactions by performing cross-edit
checks of source documents to verify data integrity and completeness of
transactions entered into SENTRY.

       Currently, the BOP tracks all of SENTRY's input and output activities
through an automated audit log, which contains system data such as the
identity of the person and device having access to the database, the date
and time of user logon/logoff activities, and data processed. At present, the
BOP uses these audit logs for the sole purpose of monitoring SENTRY's
operational performance.

      Although the SENTRY audit logs used to monitor system performance
are capable of generating ad hoc exception reports, the BOP does not
                                     8
routinely produce these reports from the logs. Additionally, we found that
the BOP’s “SENTRY System Security Guide,” dated June 23, 2000, does not
require a periodic review of exception logs. Without requiring a periodic
review of audit logs, unauthorized activities can go unnoticed,
uninvestigated, or unresolved.

      Department of Justice Order 2640.2D, Chapter 2, “Security
Requirements” (Accountability and Audit Trails), requires that audit logs be
maintained and reviewed for activities that could modify, bypass, or negate
the system's security safeguards.

     In our judgment, these weaknesses exist because the BOP failed to
implement a process for routinely identifying exceptions using audit logs.

      Recommendations:

            We recommend the BOP Director ensure that BOP management:

            4. Update the BOP’s “SENTRY System Security Guide,” dated
               June 23, 2000, to require the routine generation and review
               of exception reports; and

            5. Provide the Information Security Officer with the exception
               reports generated from the audit logs in the time period
               specified by the BOP’s “SENTRY System Security Guide.”

      Limited Transactions (Access Controls)

      Limited transaction controls restrict the access of legitimate users to
the specific systems, programs, and files needed to complete work
assignments and to prevent unauthorized users from gaining access to
computing resources. Limiting transactions include utilizing system access
controls and ensuring assigned personnel duties are properly segregated.

      Access controls are designed to limit or detect access to computer
programs, data, and equipment to protect these resources from
unauthorized modification, disclosure, loss, or impairment. They also serve
as a key control for ensuring that staff duties and responsibilities are
implemented in a way that safeguards programs. Logical access controls
involve the use of computer hardware and security software programs to
prevent or detect unauthorized access by requiring users to input unique
user identifications, passwords, or other identifiers that are linked to
predetermined access privileges. Additionally, controls are designed to
reduce the risk of errors or fraud from occurring and going undetected.
                                      9
Policies outlining the supervision and assignment of responsibilities to
groups and related individuals should be documented, communicated, and
enforced. Such controls keep individuals from subverting a critical process.

       The BOP's “SENTRY System Security Plan,” dated February 25, 2000,
requires restricting access to SENTRY through the use of software and
hardware profiles. The BOP access controls are intended to implement two
lines of defense — one at the application level, the other at the workstation
level. The use of a user identification/password requires validation and
authentication at the application level. At the workstation level,
workstations are configured to identify their location and authorization
functional capabilities to SENTRY’s system platform. Additionally, each
workstation is required to be configured in a manner that limits access to
SENTRY according to users’ identification and profiles. These limitations are
required to restrict access to menus, fields, and records within SENTRY.
According to the BOP’s Information Technology Investment Report, dated
March 31, 1998, some transactions also require SENTRY users to utilize
special access codes in addition to their user identification/password.

       Our review of SENTRY’s access controls disclosed that the combination
of authorization profiles and terminal access authority did not function as
required. Users with limited access profiles were able to process
transactions above their level of access when logged onto terminals
designated for users with higher authorization. This control weakness was
identified when a user was requested to demonstrate the BOP’s access
controls in place. The user logged onto his assigned workstation and was
unable to access inmates’ restricted medical records. However, when the
same user logged onto a different workstation assigned to another user with
higher authorization, the user was granted access to sensitive medical
records without proper authorization.

      Additionally, our audit disclosed that the BOP does not have
documentation defining who should have access to sensitive medical
records. At the time of our audit, we found that a Community Corrections
Trainee was permitted to view an inmate’s sensitive medical history records
within SENTRY. Duties that are not appropriately segregated significantly
increase the risk of releasing private information.

      For SENTRY workstations that are configured to operate at a high level
of security, access controls should be in place to prevent users with lower
levels of authorization from accessing restricted data. The failure to ensure
that access controls are properly implemented could cause critical mistakes
such as modifications of inmates’ medical records, transfer records, or
release dates.
                                     10
       Department of Justice Order 2640.2D requires access controls to
ensure system users can only access the resources necessary to accomplish
their duties and no more. Additionally, OMB Circular A-130 requires
agencies to implement the practice of “least privilege,” whereby user access
to systems is restricted to the minimum level possible.

      Recommendation:

           We recommend the BOP Director ensure that BOP management:

           6. Enforce the BOP’s existing access control policy by properly
              configuring SENTRY’s workstation controls to ensure that
              users with system authorization are restricted to areas of the
              system that they have been authorized to access, and no
              more.

II.   Completeness Controls (Processing)

       Completeness controls are designed to ensure that all authorized
transactions are processed and completed prior to being entered into the
computer. These controls include the use of record counts and control
totals, computer sequence checking, computer matching of transaction data
with data in a master or suspense file, and checking of reports for
transaction data.

      Our audit of the BOP’s completeness controls for SENTRY found
controls were in place for record counts and control totals, computer
sequence checking, checking reports for transaction data, completeness of
data processed in the processing cycle, and completeness of data processed
for the total cycle. However, we identified weaknesses with respect to
SENTRY’s computer matching of transaction data.

      Computer Matching of Transaction Data

      The BOP’s Community Corrections Management Operational
Procedures, Policy Standards 1237.12 requires all systems, whether
automated or manual, to quickly, accurately, and reliably provide
information. Additionally, it requires that only authorized and accurate
information be entered into databases. When incorrect transactions are
processed, controls should be in place to ensure that these items are
investigated and resolved in a timely manner.



                                     11
      We tested the BOP’s completeness controls for SENTRY and found that
the BOP’s SENTRY “General Use Manual” (GUM) did not reflect current
system settings. The manual provides instructions for inputting initial
inmate records into SENTRY. However, when we attempted to simulate the
addition of a new inmate into SENTRY (by following instructions indicated in
the GUM) we noted that the manual failed to include the required step of
updating an inmate identification number screen prior to initiating the
addition of an inmate.

       Recommendation:

            We recommend the BOP Director ensure that BOP management:

            7. Update SENTRY’s General Use Manual to reflect proper
               procedures for entering initial inmate records into SENTRY.

III.   Accuracy Controls (Output)

      Accuracy controls are implemented to ensure that data recording is
valid and accurate in order to produce reliable results. The implementation
of these controls includes procedures that are well designed for data entry,
easy to follow data entry screens, limit and reasonableness checks, and
validation of override actions for appropriateness and correctness. Without
accuracy controls, invalid data may enter the system and produce unreliable
results.

       Our testing of the BOP’s SENTRY accuracy controls confirmed that
controls were in place for source documents, preformatted screens, key
verification, automated entry devices, programmed validation, tests of
critical calculations, restricting overriding data validation, controlled rejected
transactions, reported of erroneous data, control output, and review of
processing reports.

IV.    Controls Over Integrity of Processing and Data Files

      Controls over integrity of processing and data files are used to ensure
that the current version of production programs and data files is used during
system processing. The implementation of these controls includes:
(1) executing program routines that can verify the proper version of
computer files, (2) protecting against concurrent file updates, and
(3) checking for internal file header labels to prevent the system end-user
from bypassing system controls.


                                       12
      The NIST Federal Information Processing Standards Publication 73,
Section 3.1.3, states that checking of input data during processing and
validation of data that is generated by the application system are essential
for assuring data integrity. Errors should be detected and corrected as soon
as possible in order to prevent the propagation of invalid data throughout
the system and the potential contamination of the system database.

      We confirmed that controls were in place for SENTRY to check for the
appropriate program. BOP end-users are only permitted access to the
production environment and are locked into the production software version
of SENTRY. Further, we found that record locks were in place within the
database disallowing two end-users from updating the same record
simultaneously. Finally, we found that SENTRY is not updated through batch
processing, therefore, a test to determine whether SENTRY programs can or
cannot bypass file header labels did not apply.

                                                  CONCLUSION

       Our application review of SENTRY identified weaknesses in 4 of the 27
FISCAM control areas that we tested. We do not consider our findings in
these areas to be major weaknesses, and we assessed SENTRY overall at a
low risk to the protection of its data from unauthorized use, loss, or
modification.16 Application control weaknesses were identified in the areas
of supervisory reviews, audit logs, access controls, and computer matching
of transaction data. Specifically, we identified weaknesses in the inputting of
incorrect offense/charge codes, incorrect inmate’s commitment date,
incorrect date of offense, and offense fines not entered into SENTRY. These
input errors represent a weakness in internal controls that should be
corrected. We also found that the BOP failed to monitor audit log exception
reports. Without requiring a periodic review of audit logs, unauthorized
activities could go unnoticed, uninvestigated, or unresolved. Moreover, our
review of SENTRY’s access controls disclosed that the combination of
authorization profiles and terminal access authority did not function as
required. Users with limited access profiles were able to process
transactions above their level of access when logged onto terminals
designated for users with higher authorization. We also tested the
completeness of controls for SENTRY and found that the BOP’s SENTRY GUM
failed to include a required step while updating inmate information.

16
     Although we performed a full application review of SENTRY, this audit report does not include an evaluation of
     SENTRY’s general controls. As part of the OIG’s Federal Bureau of Prisons Annual Financial Statement for fiscal
     year 2002, we evaluated the general controls over select SENTRY systems. In that report, weaknesses were
     identified in the area of application software development/change control, which represents one of the six
     FISCAM general control areas.


                                                          13
      We concluded that these weaknesses occurred because BOP
management did not fully develop, document, or enforce the BOP policies in
accordance with current Department policies and procedures. If not
corrected, these weaknesses could impair the BOP’s ability to ensure the
integrity, confidentiality, and availability of data contained in SENTRY.




                                    14
                                    OTHER REPORTABLE MATTER

      OMB Circular A-130, Appendix III, Section A 3.b.2 (d), requires that
a contingency plan be established and periodically tested to perform the
agency function supported by the application in the event of failure of its
automated support.

      GAO’s FISCAM recommends the frequency of contingency plan testing
should vary depending on the criticality of the entity’s operations.
Additionally, FISCAM states that generally, contingency plans should be fully
tested about once every year or two, whenever significant changes to the
plan have been made, or when significant turnover of key personnel has
occurred. Industry best practices are more stringent and indicate that a
new or revised contingency plan should be fully tested and implemented
within 90 days of development.17

      Although testing of contingency planning was not part of the FISCAM’s
application control testing that we performed,18 we noted during our review
that SENTRY’s contingency plan was last updated in September of 2002 but
was not tested. Prior to the issuance of this report, we confirmed with the
BOP that testing of the BOP’s SENTRY contingency plan was performed on
March 27, 2003, and the plan was in the review process. We suggest that
BOP continue to test its contingency plan and update the plan as
circumstances warrant.

      We also contacted the JMD regarding this matter. JMD informed us
that the Department’s standards (Department of Justice Order 2640.2D) are
currently being modified to reflect the industry best practice of the 90-day
requirement for testing contingency plans. We agree with JMD in
implementing this more stringent requirement.




17
     Department of Justice Order 2640.2D, Chapter 1, “Security Program Management,” Section 9(c) requires that
     contingency plans be tested annually or as soon as possible after a significant change to the environment that
     would alter the in-place assessed risk.
18
     Contingency planning is a FISCAM general control.
                                                          15
                                                                                              APPENDIX I


                             OBJECTIVES, SCOPE, AND METHODOLOGY

      Our audit objectives were to review the application controls for the
BOP’s SENTRY database and determine whether inmate data entered in
SENTRY are valid, properly authorized, and completely and accurately
processed.19 In order to meet these objectives, we tested SENTRY
application controls using the GAO’s FISCAM, which divides the testing of
application controls into four major areas: authorization controls (input),
completeness controls (processing), accuracy controls (output), and controls
over integrity of processing and data files.

       For testing of SENTRY’s application controls, we judgmentally selected
3 of the 29 CCOs to conduct onsite reviews of their operational workflow —
Annapolis Junction, Maryland; Philadelphia, Pennsylvania; and Chicago,
Illinois. These CCOs were judgmentally selected because they process large
volumes of inmate data into SENTRY.

      Furthermore, we performed reviews of source documents at the three
CCO offices to test input, process, output, and data integrity controls. In
addition to the testing performed at the selected CCOs, we interviewed
approximately 40 BOP officials. These interviews included the BOP
managers and officials from the Computer Services Administration,
Mainframe Systems Support, Systems Development Branch, Policy and
Information Resource Management, Office of Information Systems, and
Community Corrections. Additionally, we reviewed application, operation,
and end-user manuals; the BOP’s and Department information technology
management policy and procedures; the BOP’s project management
guidance; the BOP’s organizational structures and federal court cases; and
prior GAO and OIG reports specific to SENTRY.

      Findings identified at the time of fieldwork were communicated to the
BOP to initiate corrective action. All audit work was performed in
accordance with Government Auditing Standards and were based on the
GAO’s FISCAM, the BOP’s Standard Operating Procedures, and federal laws
and regulations governing inmate processing within the BOP facilities.




19
     Although we performed an application controls review of SENTRY, this audit report does not include an
     evaluation of SENTRY’s general controls. As part of our testing of the BOP’s Annual Financial Statement for
     fiscal year 2002, we conducted a general control review of SENTRY’s operating environment. That general
     control review identified weaknesses in the area of system development/change control, which represents one
     of the six FISCAM general control areas.

                                                        16
                                                                 APPENDIX II


          FEDERAL INFORMATION SYSTEM CONTROL AUDIT MANUAL
                      APPLICATION CONTROL AREAS
Authorization Controls (Input)                                 VULNERABILITIES
Data are authorized
1. Controlled and authorized source documents
2. Supervisory reviews (Input process)                                √
Restricted terminals
3. Secured/restricted terminals (Audit logs)                          √
4a. Limited transactions (Access controls)                            √
4b. Limited transactions (Segregation of duties)
Master files/Exception Reporting
5. Unauthorized transactions
6. Reported exceptions
Completeness Controls (Processing)
Computer processed transactions
 7.   Record counts and control totals
 8.   Computer sequence checking
 9.   Computer matching of transaction data                           √
10.   Checking reports for transaction data
Reconciliations
11. Completeness of data processed in the processing cycle.
12. Completeness of data processed for the total cycle.
Accuracy Controls (Output)
Data entry design
13.   Source documents
14.   Preformatted screens
15.   Key verification
16.   Automated entry devices
Data validation
17. Programmed validation
18. Tests of critical calculations
19. Restricted overriding data validation
Erroneous data
20. Controlled rejected transactions
21. Reported erroneous data
Output reports
22. Control output
23. Review of processing reports
Controls over Integrity of Processing and Data Files
24.   Current versions of production programs and data files
25.   Routine to verify proper version
26.   Routine for checking internal file header labels
27.   Protection against concurrent file updates


                                               17
                                                               APPENDIX III


             APPLICATION CONTROLS REVIEW GUIDELINES

                 GENERAL ACCOUNTING OFFICE
     FEDERAL INFORMATION SYSTEM CONTROL AUDIT MANUAL

      The application control guidelines used for this audit were obtained
from the GAO’s FISCAM. The information below details the sections from the
FISCAM used during our review of SENTRY.

OVERVIEW

      Application controls are the structure, policies, and procedures
that apply to separate, individual application systems, such as accounts
payable, inventory, payroll, grants, or loans. An application system is
typically a collection or group of individual computer programs that
relate to a common function. In the federal government, some
applications may be complex comprehensive systems, involving
numerous computer programs and organizational units, such as those
associated with benefit payment systems. For the purposes of this
document, application controls encompass both the routines contained
within the computer program code, and the policies and procedures
associated with user activities, such as manual measures performed by
the user to determine that data were processed accurately by the
computer.

       Application controls help make certain that transactions are valid,
properly authorized, and completely and accurately processed by the
computer. They are commonly categorized into three phases of a processing
cycle:

        •   Input - data are authorized, converted to an automated form,
            and entered into the application in an accurate, complete, and
            timely manner;

        •   Processing - data are properly processed by the computer
            and files are updated correctly; and

        •   Output - files and reports generated by the application actually
            occur and accurately reflect the results of processing, and reports
            are controlled and distributed to the authorized users.




                                      18
      Some guides provide additional categories of application controls. For
example, data origination is a breakout of input it controls to focus on source
documents and their need for authorization and proper preparation and
control. Also, data storage and retrieval focuses on access to and use of
data files and protecting their integrity.

       Instead of using the phases of a processing cycle, this document uses
control categories that better tie in with the Specific Control Evaluation
Worksheets (SCE) found in the FISCAM. The SCE is used to document the
controls evaluation and is prepared for each significant accounting
application. Included on the SCE are columns for recording the control
objectives and control techniques being evaluated and accuracy including
whether the assertion and related transactions are authorized, complete,
valid, and accurate. The control objectives and techniques addressed in this
chapter are consistent with other guidance, but our categorization, tying to
the SCE, are the following:

       •   Authorization controls - aligns with the financial statement
           accounting assertion of existence or occurrence. This assertion, in
           part, concerns the validity of transactions and that they represent
           economic events that actually occurred during a given period.

       •   Completeness controls - relates to the financial statement
           accounting assertion on completeness, which deals with whether
           all valid transactions are recorded and properly classified.

       •   Accuracy controls - relates with the financial statement assertion
           on valuation or allocation. This assertion deals with whether
           transactions are recorded at correct amounts. The control
           category, however, is not limited to financial information, but also
           addresses the accuracy of other data elements.

       •   Controls over integrity of processing and data files - if deficient,
           could nullify each of the above control types and allow the
           occurrence of unauthorized transactions, as well as contribute to
           incomplete and inaccurate data.

AUTHORIZATION CONTROLS

       Only authorized transactions should be entered into the application
system and processed by the computer. Assessing authorization controls
involves evaluating the entity’s success in performing each of the following
critical elements:

                                       19
Critical Elements:

  •   All data are authorized before entering the application system.

  •   Restrict data entry terminals to authorized users for authorized
      purposes.

  •   Master files and exception reporting help ensure all data processed are
      authorized.

       Data should be authorized before it is entered into the application
system. Federal financial management systems are often characterized as
large complex ‘legacy’ systems and often involve a multitude of documents
that flow through various work steps. Paper source documents still play a
significant role for originating data that enter application systems in the
federal government. These source documents should fall under control
measures so that unauthorized transactions are not submitted to and
processed by the application. Also, data whether from a source document or
not should undergo an independent or supervisory review prior to entering
the application.

Source documents are controlled and require authorizing signatures.

      Control over source documents should begin even before data is
recorded on the document. Access restrictions over blank source documents
should prevent unauthorized personnel from obtaining a blank source
document, recording unauthorized information, and inserting the document
in the flow with authorized documents and possibly causing a fraudulent or
malicious transaction to occur. Use of pre-numbered source documents
could help identify unauthorized documents that fall outside the range of
authorized numbers for documents being prepared for data entry.

      Key source documents for an application should require an authorizing
signature, and the document should provide space for the signature by an
authorized official.

      For batch application systems - i.e., source documents are processed
in batches - the source documents should be collected together and a batch
control sheet should be prepared for individual batches. The control sheet
should have space for recording the date, a batch control number, the
number of documents in the batch, a control total for a key field in the
documents, and the identification of the user submitting the batch.
Establishing control over batches helps detect unauthorized modifications to

                                     20
a document and prevents unauthorized documents from being entered into
the application system. The document counts and control totals also help to
determine whether all transactions are completely entered and processed by
the computer. The following sections are also important to ensuring all
transactions are authorized, particularly when the application system is
designed such that transactions are entered individually instead of in
batches.

Supervisory or independent reviews of data occur before entering
the application system.

      Providing supervisory or independent review of data before entering
the application system helps prevent the occurrence of unauthorized
transactions. A data control unit is effective for this purpose and this
function has evolved as technology has advanced. With earlier systems,
source documents were batched in the user department and sent to a data
control unit that was organizationally under the information systems
department. This unit monitored data entry and processing of the
documents, seeing that all batches were received, entered, and processed
completely. In addition, personnel in this unit verified that each source
document was properly prepared and authorized before the data on the
document was entered into the system.

      This function has migrated to the user department as it gained access
to application systems through computer terminals. Several or more
personnel in the user department may now enter source documents into a
transaction file that is not released for processing until a supervisory or
independent review occurs. A user department control unit may have the
responsibility to see that entered transactions are supported by a source
document that contains a valid authorizing signature. Also, supervisors in
the user department may hold this responsibility. These application systems
may have a separate authorization screen accessed by computer terminal by
control unit or supervisory personnel. After verifying the input transactions,
the control unit or supervisory personnel enter the required authorization
and release the data for further processing.

      Unauthorized personnel who have unrestricted access to data entry
terminals (as well as by authorized users who are not restricted in what
transactions they can enter) can compromise the integrity of application
data. Without limits, unauthorized personnel and authorized users could
enter fraudulent or malicious transactions. To counter this risk, both
physical and logical controls are needed to restrict data entry terminals to
authorized users for authorized purposes. This section provides an overview

                                     21
of controls relevant to restricting data entry terminals and limiting users in
what transactions they can enter. Any work done in this section should be
done in conjunction with the other two sections.

Data entry terminals are secured and restricted to authorized users.

      Data entry terminals should be located in physically secure rooms.
When terminals are not in use, these rooms should be locked, or the
terminals themselves should be capable of being secured to prevent
unauthorized use. Supervisors should sign on to each terminal device, or
authorize terminal usage from a program file server, before an operator can
sign on to begin work for the day. Each operator should be required to use
a unique password and identification code before being granted access to
the system.

      Data entry terminals should be connected to the system only during
specified periods of the day, which corresponds with the business hours of
the data entry personnel. Each terminal should automatically disconnect
from the system when not used after a specified period of time.

      Where dial-up access is used to connect terminals to the system,
connection should not be completed until the system calls back to the
terminal. These terminals should generate a unique identifier code for
computer verification. Such procedures help limit access to known,
authorized terminals.

      On-line access logs should be maintained by the system, such as
through the use of security software, and should be reviewed regularly for
unauthorized access attempts. All transactions should be logged as they are
entered, along with the terminal ID that was used, and the ID of the person
entering the data. This builds an audit trail and helps hold personnel
accountable for the data they enter.

Users are limited in what transactions they can enter.

      It is not enough to restrict access to data entry terminals to authorized
users, as these users may still enter unauthorized transactions, if they are
not limited on what transactions they can enter. Limits can be accomplished
through authorization profiles. One authorization profile level can be placed
over the terminal so that only specified transactions can be entered from a
given terminal. For example, a terminal in a payroll office may be granted
authorization so that payroll information, such as employee time and
attendance and pay withholdings, could be entered from that terminal.

                                      22
However, to effect a separation of duties, this terminal could be denied
authorization to enter personnel actions, such as hirings that would create a
new employee pay record, or promotions. These latter transactions are
normally restricted to a personnel or human resources office.

      Authorization profiles can also be established for user personnel.
These personnel can be denied authorization for initiating transactions that
would add or change a record on the authorized vendor master file. If one
employee had the capability to initiate both types of transactions, the
employee could potentially cause a fraudulent transaction by creating a
vendor master record and initiating a payment that would be sent to the
specified address or bank account controlled by the employee.

      Before the auditor can rely on authorization profiles to reduce the
audit risk, the auditor must determine the adequacy of the general controls
over the profiles. That is, if the general controls are not effective in
preventing unauthorized changes to the data matrix or table that constitutes
the profile, the auditor should not rely upon this control.

       An effectively controlled application system will also have authorization
type controls to monitor data as it is processed. Two such controls include
the use of master files and exception reporting that help determine the
validity of transactions. These controls require computer programs to
perform the validity checks and involve a process commonly referred to as
data validation and editing. Many of the programmed checks in this process
also concern the validity and accuracy of data fields in a transaction record,
including whether a data field has a valid code, such as a pay withholding
code used in a payroll application system. This section focuses on checks to
determine the validity of a transaction. Data validation and editing is a more
detailed discussion of data validation and editing, focusing on checks to
determine the validity and accuracy of data fields.

Master files help identify unauthorized transactions.

       A master file is a computer file that contains account and/or reference
information that are integral to application systems, such as a payroll master
file containing authorized employees and pay data. Master files and their
approved records can help identify unauthorized transactions. For example,
an accounts payable system should have a master file of approved vendors.
As payment transactions are processed, they would be compared with this
file and any payment for a vendor not on the file would be rejected and
investigated by supervisor personnel, or by personnel specifically assigned
this responsibility that do not also have responsibility for initiating vendor

                                      23
payments. Using this process, there is greater assurance that all
transactions not rejected are authorized and valid payments.

Exceptions are reported to management for their review and approval.

      An exception report lists items requiring review and approval. These
items may be valid, but exceed parameters established by management.
Implementation of this control may vary, such that one system may print
checks and have them routed to management to be released after their
approval, and another system may hold the transaction in a suspense
account until management enters an authorizing indicator, thus triggering
the disbursement.

      Before the auditor can rely on these controls to reduce the audit risk,
the auditor must, as in the previous section, determine the adequacy of the
general controls over these controls. That is, these controls would be
rendered ineffective if the general controls would not prevent unauthorized
changes to the master files and exception criteria, and to the program code
responsible for performing the file and criteria comparisons with transaction
data.

COMPLETENESS CONTROLS

      All authorized transactions should be entered into and completely
processed by the computer. Assessing the controls over completeness
involves evaluating the entity’s success in performing each of the critical
elements listed below.

Critical Elements:

   •   All authorized transactions are entered into and processed by the
       computer, and

   •   Reconciliation is performed to verify data completeness.

      A control for completeness is one of the most basic application
controls, but is essential to ensure that all transactions are processed, and
missing or duplicate transactions are identified. The most commonly
encountered controls for completeness include the use of record counts and
control totals, computer sequence checking, computer matching of
transaction data with data in a master or suspense file, and checking of
reports for transaction data.



                                      24
Record counts and control totals.

      In general, user-prepared totals established over source documents
and data to be entered can be carried into and through processing. The
computer can generate similar totals and track the data from one processing
stage to the next and verify that the data was entered and processed, as it
should have been. For example, a file of valid transactions (i.e.;
transactions that pass data validation and editing) can contain a control
record showing the record count and control totals for the file. As the file is
processed through a job (or job step) the computer can calculate a record
count and control totals for the transactions processed. The computer
calculated amounts are compared with the amounts in the control record.
Agreements in the amounts provide evidence that the processing was done
accurately and completely. Disagreements indicate that a problem has
occurred and needs to be investigated and rectified. On-line or real-time
systems, where transactions are not entered as a batch, can still utilize this
technique by establishing record counts and control totals over transactions
entered during a specific time period, such as daily.

Computer sequence checking.

       This control begins by providing each transaction with a unique
sequential number. Some transactions originate on source documents with
preassigned serial numbers. This number should be entered into the
computer along with the other data on the transaction. The computer can
identify numbers missing from the sequence and provide a report of missing
numbers. The missing numbers should be investigated to determine
whether they are numbers for voided source documents, or are valid
documents that may have been lost or misplaced.

      For transactions not on source documents with preassigned serial
numbers, the computer can assign a unique sequential number as the data
is entered. At a later point in processing, such as when transaction data
updates a master file, the computer can verify that all numbers are
accounted for. Again, missing numbers are reported for investigation.

       Sequence checking is also valuable in identifying duplicate
transactions. For example, two transactions with the same preassigned
serial number for a source document would indicate that the transaction had
been erroneously entered a second time. As another example, a file of
sequential numbers for purchase orders could help prevent paying for the
purchase more than once. After the purchased goods and vendor’s bill are

                                      25
received, a payment transaction with the purchase order number would be
matched with the file containing all purchase order numbers, and an
indicator for the payment would be recorded on the file for that purchase.
The payment indicator would cause following payment transactions for the
same purchase order to be rejected and reported for investigation.

Computer matching of transaction data.

      This control involves matching transaction data with data in a master
or suspense file. Unmatched items from both the transaction data and
master or suspense file are reported for investigation. For example, a
payroll system may be designed so that each employee’s time and
attendance sheet is matched to the employee’s master pay record. Each
time sheet that does not match with a master pay record is reported to
determine whether it represents a valid employee and the master pay file
needs to be updated. Each master pay record that does not receive a match
is reported to determine whether a valid employee exists and a time sheet
must be found or created so that the employee will receive pay on time.
Also, master pay records with more than one time sheet are reported, which
indicates a duplicate time sheet exists for one employee.

      As another example, before initiating a payment, a vendor’s invoice
could be matched with a file containing records detailing goods received.
Invoices not matched could be reported to show goods not received, and no
invoices would be paid until a match occurred.

Checking reports for transaction data.

      This activity involves checking each individual transaction with a
detailed listing of items processed by the computer to verify that the
transaction submitted was indeed processed. While an effective method, it
is time-consuming and costly. Therefore, it is normally used with low-
volume but high-value transactions, such as updating master files.

Reconciliations show the completeness of data processed at points
in the processing cycle.

      An application system is a collection or group of individual computer
programs that relate to a common function. As data is entered into and
processed through these programs, reconciliations of record counts and
control totals at various points helps make certain that all the data was
processed completely for the programs relative to the reconciliation. For
example, control over a batch (a collection) of source documents may entail

                                    26
a user to establish a record count and control total over the batch and
record the amounts on a batch control sheet. The control information on
the batch control sheet would be entered into the computer along with the
information on each source document. The computer would compute a
similar record count and control total for the batch as the data is entered.
For the reconciliation, the computer would compare the computed amounts
with the entered amounts from the batch control sheet. Agreement in the
amounts indicates all data was completely entered. A disagreement may
indicate some data is missing, an amount was entered incorrectly, or the
batch control information was calculated or entered incorrectly. Batches
with disagreements are commonly referred to as a “batch-out-of-balance.”
These should not undergo further processing until the disagreements are
investigated and resolved. The record counts and control totals for batches
in agreement are usable for reconciliations during later processing, as
discussed below.

      For applications where transactions are entered individually as they
occur, this concept is still of use, as a record count and control total could be
established over transactions entered during a specific time period, such as
daily. Files should contain record count and control total information so that
the computer can verify processing completeness as it progresses.
Computer tape files would contain this information in a “trailer label” record
that exists at the end of all data records on the tape. A disk file would
contain this information in a control record. A program creating the file
calculates and records the control information on the file. As a subsequent
program processes the file, the computer calculates similar information and
reconciles what it calculated with what was recorded on the file. Agreement
in the amounts indicates all data was completely processed. This control
information is commonly referred to as “run-to-run control totals.”

      As systems have become more integrated over the years, a file
produced by one application may be used in another application. It is
important to reconcile control information between the sending and receiving
applications.

      Performing the comparison of control numbers is commonly referred to
as balancing, and should be done automatically by the computer, although
some older systems may rely on manual balancing procedures. The control
numbers for the balancing at key points should be documented, such as
being printed on a control totals balance report, and should be reviewed by
the data processing control group that monitors the completeness and
accuracy of processing.


                                       27
Reconciliations show the completeness of data processed for the
total cycle.

       Reconciliations should occur periodically that verify the completeness
of data processed for a given cycle, such as daily, weekly, or relative to the
processing cycle - for example, monthly for an accounts payable system. A
control register is an effective tool to use in this process. Such
reconciliations monitor the completeness of transactions processed, master
files updated, and outputs generated, such as cash disbursements.

       To illustrate with updating a master file, control information for this file
should be recorded in the control register at the start of the cycle. Control
information for the transactions entered that will update the master file
should be reconciled with the control information over both accepted and
rejected transactions. Control information for the accepted transactions that
update the master file should be entered in the control register and added to
the control information for the beginning master file. Control information for
the updated master file should then be reconciled to the control register,
should equal the sum of the beginning master file and accepted transactions.
Another example illustrates reconciliation over disbursements for an
accounts payable system. A vendor master file may contain a data field to
record month-to-date payments. A total of all the vendors’ month-to-date
payments in the master file should be reconciled with and equal the total for
all the checks written during the month to those vendors.

ACCURACY CONTROLS

      The recording of valid and accurate data into an application system is
essential to provide for an effective system that produces reliable results.
Assessing the controls for valid and accurate data involves determining the
entity’s success in achieving each of the critical elements listed below.

Critical Elements.

   •   Data entry design features contribute to data accuracy,

   •   Data validation and editing are performed to identify erroneous data,

   •   Erroneous data are captured, reported, investigated, and corrected,
       and

   •   Review of output reports helps maintain data accuracy and validity.


                                        28
      Well-designed data entry processes can contribute to the entry of
accurate and valid data. On the other hand, inadequacies in this area can
contribute to data entry errors. The focus here includes source document
design, preformatted computer terminal data entry screens, key verification,
and the use of automated entry devices.


Source documents are designed to minimize errors.

       Special purpose forms should be used that help the preparer to initially
record data correctly and in a uniform format. This also facilitates the entry
of data at a later stage. For example, rather than just providing a blank
(“_________“) for a social security number, a well-designed form would
include the following to record the number: “ - - .” For each type of
transaction, the source document should provide a unique code or identifier,
which should be preprinted on the document for data entry if it supports
only one transaction type. The application computer programs use the
transaction type for selecting the processing to be performed on the
transaction. When several or more codes are options for identifying a data
field’s purpose, such as a payroll withholding, the options should be
preprinted on the source document. A short list of options could appear
under or near the data field, and a longer list could appear on the back of
the document.

Preformatted computer terminal screens guide data entry.

      Using preformatted computer terminal screens for data entry helps
increase data accuracy at the point of entry. The computer screen (and the
associated program code) prompts the terminal operator for data by field.
Programmed routines allow the data to be checked or edited as it is keyed.
After the data has been entered and passes the programmed edits, the
computer screen prompt moves to the next data field indicating to the
terminal operator the next data to be entered.

Key verification increases the accuracy of significant data fields.

        For paper intensive source document environments found in large
government transaction operations, key verification is a common technique
still used to increase the accuracy of significant data fields. For this
technique, after initial entry of transaction data, a separate individual reads
the same source document and keys data into a machine that checks the
results of keystrokes with what was originally keyed. Data that is keyed
differently is reviewed to determine the correct data. As an example, the

                                      29
Internal Revenue Service (IRS) uses key verification to ensure that certain
data from tax returns have been entered correctly. This technique’s
effectiveness is reduced if the original data entry person is also the one
performing the key verification, or if the key verifier is located next to or in
the proximity of the original data entry person, thereby negating a
separation of duties in performing this function.

Automated entry devices increase data accuracy.

      The use of automated entry devices (e.g., optical or magnetic ink
character readers) can reduce data error rates, as well as speed the entry
process. The IRS’s use of preprinted labels, showing the taxpayer’s name,
address, and social security number is such an example. This information
can be entered without keying the data, which ensures a more accurate and
faster process.

       A crucial control activity involves identifying erroneous data at the
point it enters the application system, or at some later point during the
processing cycle. This is accomplished in a process that is commonly called
data validation and editing. Programmed validation and edit checks are key
to this process, and are generally performed on transaction data entering
the system, as well as data prior to updating master files, and data resulting
from processing.

Programmed validation and edit checks identify erroneous data.

      Programmed validation and edit checks are, for the most part, the
most critical and comprehensive set of controls in assuring that the initial
recording of data into the system is accurate. These controls are built as
early as possible in the input process, and provide extensive coverage over
as many data fields that a user feels a need to control. This approach is
used extensively in both batch and on-line environments.

      Programmed validation and edit checks can effectively start as the
data are being keyed in at a computer terminal using preformatted computer
screens. For example, an alphabetic character entered for a numeric field
can be rejected as it is keyed. Also, data involving quantities or values can
be checked to ensure they fall within reasonable predetermined limits, or
within the range of a set of numbers. Further, key fields, such as a loan
account number, or parts number in an inventory system, could employ a
check digit to help validate that the number is being entered correctly. The
check digit is an additional number contained in the key field, which is
determined by a formula from the other numbers of the key field. The

                                       30
computer recalculates the check digit using the formula with the numbers
entered and compares the calculation with the check digit entered.
Agreement between the check digit entered and the recalculated check digit
provides support that all the numbers were entered correctly with no
transposition errors.

       Programmed validation and edit checks may also occur after data has
entered the application. For example, transaction data may enter the
processing cycle from another application and should be subjected to these
checks. This should occur before updating master files, and should be
performed early in the data flow to reduce the processing associated with
incorrect data. Some of these later checks may focus on determining the
validity of a transaction data field. For example, a benefit payment system
may compare the transaction’s disability type code to a table of valid codes.
Other checks may focus on determining the validity of the transaction itself,
such as comparing vendor invoices with an approved vendor file, and with a
file on purchase orders and goods received.

      These checks also help provide that data recorded in key fields on
master files are accurate and valid. One check, known as relationship
editing, compares data in a transaction record with data in a master record
for appropriateness and correctness before updating the master record. As
an example, a personnel action to effect a promotion for an employee on a
master pay file will first establish a match between the transaction record
and pay record based on the employee’s social security number. However,
before posting the new grade level and salary to the pay record, the
computer may ensure that the names in the transaction record and pay
records agree, and that the old grade level in the personnel action is the
same grade level as the existing grade level in the pay record. Only after
agreement with both items will the pay record be updated.

        The total transaction should undergo data validation and editing, and
all fields in error should be identified before the transaction is rejected from
further processing.

Tests are made of critical calculations.

      Data resulting from processing routines, such as critical calculations,
should also be tested to ensure the results are valid. For example, limits
and reasonableness checks would help identify erroneous results before they
cause some negative impact. Unusual items could be held and reported for
management review and approval. Through such means, disbursements


                                       31
exceeding a certain amount could be routed for a manager’s review and
approval prior to release of the disbursement.

      Before the auditor can rely on the entity’s data validation and editing
checks, discussed in this and the previous sections, to reduce the audit risk,
the auditor must determine the adequacy of the general controls over these
checks. To be effective, the general controls should protect the program
code and any related tables associated with the validation and edit routines
from unauthorized changes.

Overriding or bypassing data validation and editing is restricted.

      Many systems allow data validation and edit routines to be bypassed,
which could allow the system to accept and process erroneous data. Using
the bypass capability (sometimes referred to as an override) should be very
limited and closely controlled and monitored by supervisory personnel. For
example, each override should be automatically logged and reviewed by
supervisors for appropriateness and correctness.

       Transactions detected with errors need to be controlled to ensure that
they are corrected and reentered in a timely manner. During data entry,
particularly with more modern systems, an error can be identified and
corrected at the data entry terminal. With errors identified during the data
processing cycle, however, a break generally has been made from the data
entry terminal. Therefore, errors identified cannot be communicated in a
real-time mode back to personnel entering the data for immediate
correction. An automated error suspense file is an essential element to
controlling these data errors, and the errors need to be effectively reported
back to the user department for investigation and correction.

Rejected transactions are controlled with an automated error
suspense file.

Using an automated error suspense file should control rejected transactions.
Transactions entered into this file should be annotated with:

      • codes indicating the type of data error,

      • date and time the transaction was processed as well as
        the error identified, and

      • the identity of the user who originated the transaction.


                                      32
     Record counts and control totals should be developed automatically
during processing of erroneous transactions to the suspense file and used in
reconciling the transactions successfully processed. A control group should
be responsible for controlling and monitoring the rejected transactions.

       The suspense file should be purged of the related erroneous
transaction as the correction is made. Record counts and control totals for
the suspense file should be adjusted accordingly. Periodically, the suspense
file should be analyzed to determine the extent and type of transaction
errors being made, and the age of uncorrected transactions. This analysis
may indicate a need for a system change or some specific training to reduce
future data errors.

      General controls should protect the suspense file from unauthorized
access and modification, in order for the auditor to be able to rely on this
control technique to reduce audit risk.

Erroneous data are reported back to the user department for
investigation and correction.

       Systems that allow user groups to enter data at a computer terminal
often allow data to be edited as it is entered, and generally allows immediate
correction of errors as they are identified. Error messages should clearly
indicate what the error is and what corrective action is necessary. Errors
identified at a later point in processing should be reported to the user
originating the transaction for correction.

      Some systems may use error reports to communicate to the user
department the rejected transactions in need of correction. More modern
systems will provide user departments’ access to a file containing erroneous
transactions. Using a computer terminal, users can initiate corrective
actions. Again, error messages should clearly indicate what the error is and
what corrective action is necessary. The user responsible for originating the
transaction should be responsible for correcting the error. All corrections
should be reviewed and approved by supervisors before being reentered into
the system, or released for processing if corrected from a computer
terminal.

      Output can be in several forms, including printed reports, data
accessible on-line by users, and computer files that will be used in a later
processing cycle, or by other programs in the application. Output should be
reviewed and control information should be reconciled to determine whether
errors occurred during processing. Various reports are typically produced by

                                      33
application systems that, if reviewed, help maintain the data’s accuracy and
validity. Production and distribution of these reports need to be controlled,
and to be effective, they need to be reviewed by the user.

Control output production and distribution.

      Someone should be assigned responsibilities for seeing that all outputs
are produced and distributed in accordance with the requirements and
design of the application system. In larger organizations with mainframe
computer environments, this responsibility is typically assigned as part of
the responsibilities of a data control group, which falls within the information
systems department. This group, or some alternative, should maintain a
schedule by application that shows the output products produced, when they
should be completed, whom the recipients are, the copies needed, and when
they are to be distributed. The group should review output products for
general acceptability and reconcile control information to determine the
completeness of processing.

       Printed reports should contain proper identification, including a title
page with the report name, time and date of production, and the processing
period covered by the report. Reports should also have an “end-of-report”
message to positively indicate the end of a report. A report may have pages
missing at the end of the report, which may go undetected without this type
of message. Controls and procedures are needed to ensure the proper
distribution of output to authorized users. Without control over distribution,
users may not receive needed output in a timely manner, and unauthorized
persons may gain access to output containing privacy or sensitive
information. Each output should be logged, manually if not done
automatically, along with the recipients of the output, including outputs that
are transmitted to a user’s terminal device. For these transmissions, the
computer system should automatically check the output message before
displaying, writing, or printing to make sure the output has not reached the
wrong terminal device. In the user department, outputs transmitted should
be summarized daily and printed for each terminal device, and reviewed by
supervisors.

      Occasionally, errors may be identified in output products requiring
corrective action, including possibly rerunning application programs to
produce the correct product. A control log of output product errors should
be maintained, including the corrective actions taken. Output from reruns
should be subjected to the same quality review as the original output.



                                      34
Reports showing the results of processing are reviewed by users.

      The user department has ultimate responsibility for maintaining data
quality, and should review output reports for data accuracy, validity, and
completeness. Some typical reports that are commonly produced for review
by users include the following:

      •   An error report that shows rejected transactions, the cause(s) of
          the rejections, and corrections needed.

      •   A transaction report that lists important data fields of every valid
          transaction in the processing cycle. Transactions that are internally
          generated by the application (e.g., inventory orders as stocks reach
          the reorder quantity) are included and listed separately.

      •   A master record change report (also known as a “was-is” report)
          that shows the contents of every master record before and after
          every master record change.

      •   An exception report that lists items requiring review and approval.
          These items may be valid, but exceed parameters established by
          management, such as disbursements exceeding a dollar amount.

      A control totals balance report lists the control fields and the totals
calculated by the computer to show the results of processing. If similar
figures were predetermined and entered with the data submitted for
processing, the report will also identify agreements and variances.

CONTROLS OVER INTEGRITY OF PROCESSING AND DATA FILES
   Example of items to cover:


          •   Procedures ensure that the current versions of production
              programs and data files are used during processing.

          •   Programs include routines to verify that the proper version of the
              computer file is used during processing.

          •   Programs include routines for checking internal file header labels
              before processing.

          •   The application protects against concurrent file updates.


                                       35
                                                             APPENDIX IV


                    SENTRY’S AUTHORIZED USERS LIST
         (As indicated within the BOP’s SENTRY Risk Assessment, December 2000)

Criminal Division

Department of Justice

Drug Enforcement Administration (DEA) - El Paso Intelligence

Drug Enforcement Administration (DEA) - National Drug Intelligence

Federal Bureau of Investigation

Immigration and Naturalization

Interpol Headquarters

Justice Management Division

Office of Pardon Attorney

Office of the Corrections Trustee

Office of the Inspector General

Parole Commission

United States Army

United States Attorneys

United States Marshals Service

United States Marshals Service Transportation

United States Navy

United States Probation Office

United States Sentencing Commission




                                        36
                                                        APPENDIX V


                        ABBREVIATIONS

BOP          The Federal Bureau of Prisons

CA           Computer Associates

CCO          Community Corrections Office

DBMS         Database Management System

Department   The Department of Justice

FISCAM       Federal Information System Controls Audit Manual

GAO          Government Accounting Office

GUM          General Use Manual

IDMS         Integrated Data Management System

IFRP         Inmate Financial Responsibility Program Module

IRS          Internal Revenue Service

J&C          Judgment and Commitment Order

JCN          Justice Consolidated Network

JDC-D        Justice Data Center in Dallas, Texas

JMD          Justice Management Division

MAN          Metropolitan Area Network

NCC          Network Control Center

OIG          The Office of the Inspector General

PSI          Pre-Sentence Investigation Report

PLRA         The Prisoner Litigation Reform Act

USMS         United States Marshals Service

VCCLEA       Violent Crime Control and Law Enforcement Act of 1994



                                37
                                                                 APPENDIX VI


            DESCRIPTION OF SENTRY DATABASE MODULES

The Inmate Population Monitoring module - tracks inmate movement in
every BOP facility, or while an inmate is in transit, regardless of location or
time of day. It also provides immediate access to the current population of
any institution, region, or community facility. The module encompasses
admission processing; admission or release status; custody, quarters, unit,
caseworker, and work assignments; inmate count monitoring; special inmate
monitoring; education, court, and hospital callouts; inmate facility
designations; release and transfer processing; program treatment
monitoring; and social and education data reporting. A number of
preformatted reports are available to assist institutions in managing day-to-
day operations.

Sentence Monitoring module - calculates and tracks all aspects of an
inmate’s sentence. It ensures that inmates’ release dates are accurate and
that sentence calculations comply with statutory requirements and the BOP
regulations. As federal statutes regarding inmates’ sentences have become
increasingly complex, the module must now track inmates’ education and
disciplinary records, as well as participation in drug or boot camp programs,
and include factors based on these records into the sentence. As lawsuits by
inmates routinely challenge sentence calculations, the consistency and
accuracy offered by the Sentence Monitoring module enables the BOP to
successfully defend itself.

Designations module - is the means by which all inmates are assigned to
specific facilities. Using criteria identified in the BOP’s inmate classification
system — severity of offense, history of violence, type of detainer, etc. —
and public safety factors where appropriate, the module calculates a total
security score and inmate security level, factors in specific inmate
requirements (e.g., drug abuse program, medical condition, judicial
recommendation), and displays a list of appropriate facilities for the Inmate
Designator to choose from, in order of distance from the inmate’ s residence.
If any of these facilities houses other inmates that the inmate needs to be
separated from, SENTRY displays a warning. It records the Designator’s
choice of facility, creates a log entry to advise the facility that the inmate
was designated there, and updates the running total of inmates on their way
to that facility. This module also helps the BOP’s Office of Capacity Planning
determine security level requirements for future institutions.




                                       38
Central Inmate Monitoring module (CIM) - identifies inmates who the
court has determined need special evaluation (e.g. review of mental status).
The need to separate inmates who have threatened each other was the
initial reason for developing this module. It tracks inmates’ "separatees"
and allows the BOP staff to designate them to institutions where they will be
safe. If an inmate is admitted to a facility where separation from others is
warranted, the institution is notified and may take appropriate action.
According to the BOP, it has not had an injured inmate as a result of the
BOP’s failure to separate as considered necessary.

In addition, the system records inmates’ participation in disruptive groups
and street gangs such as the Aryan Brotherhood (AB),20 the Black Guerrilla
Family (BGF),21 and the Latin Kings.22 Managing the distribution of these
gangs throughout the BOP’s facilities lessens the likelihood of gang-on-gang
violence.

The final function of CIM is the protection of Government witnesses. These
inmates’ identities and locations are shrouded from all SENTRY resources
other than those in protective custody units and a limited number of
management users in Regional and Central offices. If an unauthorized user
attempts to retrieve information about these inmates, no indication is given
that they even exist.

Administrative Remedy System module - reports and tracks the
responses of the BOP’s inmates’ complaints and the procedure for doing so.
This module replaced the labor-intensive process of disseminating a variety
of documents to the inmates. Each Administrative Remedy is logged
electronically. An automated tracking capability helps track cases in process
and monitor critical due dates.



20
     The letters "AB" represent Aryan Brotherhood, a prison gang that originated in 1967 in the California Department
     of Corrections at San Quentin. Many members display white supremacist ideology, but they are first and
     foremost a criminal gang involved in the methamphetamine trade. AB has also spawned other white gangs in
     the prison system. Several common nicknames for AB members are Alice, Alice Baker, Tip & Brand, and the
     Brand.

21
     The initials "BGF" (Black Guerilla Family) combined with cross sabers, shotguns, and black dragons taking over
     prison towers provide the backdrop for this tattoo. Former Black Panther George L. Jackson started this gang at
     San Quentin State Prison in California in 1966. The gang has a strong political ideology that promotes Black
     revolution and the overthrow of the government.
22
     The largest Latino gang in Chicago, and perhaps in the United States, is the Latin King and Queen Nation. The
     Latin Kings have their roots in the Puerto Rican experience in Chicago. Gentrification has pushed Chicago's
     Puerto Rican community and their gangs from Harrison Street on the near west side to Lincoln Park and then to
     Humboldt Park — which is now undergoing substantial gentrification. The Latin Kings are also a major force in
     the barrios of New York. Black & Gold is a documentary film of the politicalization and repression of the Latin
     Kings in New York City in the 1990s. Latin Kings have chapters all across the United States.


                                                          39
Inmate Discipline module - tracks every report of a breach of institution
rule filed against an inmate from beginning of the process to the end to
ensure compliance with policy. For example, the module ensures the
appropriate regulations are imposed according to the seriousness of the act
committed. This module is integrated into the inmate population monitoring
module’s generalized retrieval program to allow the addition of discipline
information when searching for groups of inmates. It also interacts with
modules used by the Office of Research to provide statistics on inmate
assaults against staff members and other inmates.

Inmate Financial Responsibility Program module (IFRP) - records,
manages, and monitors court-ordered financial obligations imposed on
inmates. IFRP payments are deducted from institution earnings and applied
to an inmate’s financial obligations. These funds are automatically
transmitted to the appropriate organization for disbursement to the Crime
Victims Fund and other recipients.

State Billing module - tracks and reports amounts owed to different states
for an inmate serving a state sentence in a BOP facility. Per diem rates are
entered into SENTRY in accordance to the length of time served in a BOP
facility. SENTRY accounts for the various rate computations and reports, to
each jurisdiction, the inmate’s name, length of time spent, per diem rate,
and total dollar amount involved. Summary and management reports are
distributed indicating the time an inmate spends in any BOP facility in any
given year.

Property Management System module - keeps track of the BOP’s
accountable property and automatically computes the depreciation of
capitalized property.




                                    40
                                                             APPENDIX VII

                   APPLICATION CONTROL CRITERIA

1.    The GAO’s Federal Information System Controls Audit Manual.

2.    Department of Justice Order 2640.2D, Information Technology
      Security, Chapter 2, “Security Requirements.”

3.    OMB Circular A-130, Appendix III, Section A 3.b.2.

4.    National Institute of Standards and Technology, Special Publication
      800-18.

5.    National Institute of Standards and Technology, Federal Information
      Processing Standards Publication 73, Section 3.1.1.

6.    Office of the Inspector General Audit report number 03-13
      “Independent Evaluation Pursuant to the Government Information
      Security Reform Act,” fiscal year 2002, The Justice Consolidated
      Network.

7.    The BOP’s Standard Operating Procedures.

8.    The BOP’s SENTRY Contingency Plan.

9.    The BOP’s Information Technology Investment Report.

10.   The BOP’s Community Corrections Management Operations Procedures
      (PS 5100.07).

11.   The BOP’s SENTRY “General Use Manual.”

12.   The BOP’s “SENTRY System Security Guide,” dated June 23, 2000.

13.   The BOP’s “SENTRY System Security Plan,” dated February 25, 2000.

14.   The BOP’s Security Evaluation Report.

15.   The BOP’s Policy Standard 1237.12.




                                     41
     APPENDIX VIII




42
43
44
                                                               APPENDIX IX


 OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION ANALYSIS
  AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

      The BOP’s response to the audit (Appendix VIII) describes the actions
taken or plans for implementing our recommendations. This appendix
summarizes our response and the actions necessary to close the report.

Recommendation Number:

1. Resolved. The BOP agreed to enforce the BOP Policy Standards (PS)
   5100.07, which states that all Community Corrections Offices (CCOs) are
   to use the BP-337 for inputting initial inmate data as the sole source
   document by July 1, 2003. To close this recommendation, the BOP
   needs to provide the OIG with evidence that the CCOs have received
   notification of the requirement.

2. Unresolved. The BOP did not respond to the OIG recommendation to
   redesign the BP-337 so that mandatory information needed for tracking
   BOP inmates can be documented. The BOP stated the appropriate BOP
   personnel were not present at the exit conference to address this issue.
   Therefore, the BOP requested an informal meeting with the OIG to
   address this issue prior to providing an official response. Please contact
   the OIG to schedule this meeting.

3. Unresolved. The BOP did not respond to the OIG recommendation to
   modify the BP-337 to indicate which source document should be used to
   complete each field within this form. The BOP stated the appropriate
   BOP personnel were not present at the exit conference to address this
   issue. Therefore, the BOP requested an informal meeting with the OIG
   to address this issue prior to providing an official response. Please
   contact the OIG to schedule this meeting.

4. Resolved. The BOP agreed to update the BOP’s “SENTRY System
   Security Guide,” dated June 23, 2000, to require the routine generation
   and review of exception reports by December 12, 2003. To close this
   recommendation, the BOP needs to provide the OIG with a copy of the
   updated and approved “SENTRY System Security Guide.”

5. Resolved. The BOP agreed to provide the Information Security Officer
   with the exception reports generated from the audit logs in the time
   period specified by the BOP’s “SENTRY System Security Guide” (SSG) by
   October 1, 2003. To close this recommendation, the BOP needs to
   provide the OIG with evidence of this occurring.

                                     45
6. Resolved. The BOP agreed to enforce the BOP’s existing access control
   policy by properly configuring SENTRY’s workstation controls. Currently,
   the BOP is in the process of porting SENTRY to a Web architecture. This
   process is projected to be completed by FY 2005. To close this
   recommendation, the BOP needs to provide the OIG with a copy of the
   documented procedures and evidence of its full implementation.

7. Resolved. The BOP agreed to update SENTRY’s General Use Manual
   (GUM) to reflect proper procedures for entering initial inmate records into
   SENTRY by December 5, 2003. To close this recommendation, the BOP
   needs to provide the OIG with a copy of the SENTRY’s revised GUM and
   documented procedures.




                                     46
